No. 21In The

Supreme Court of the United States
SCOTT PHILLIP FLYNN, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.

PETITION FOR WRIT OF CERTIORARI

PROOF OF SERVICE

I, Ian M. Comisky, counsel of record for
Petitioner Scott Phillip Flynn, and a member of the
Bar of this Court, hereby certify that on the 11th day
of February, 2021, I caused to be served a copy of the
Petition for a Writ of Certiorari in the abovereferenced case upon counsel for Respondents and the
Solicitor General of the United States by electronic

2
mail in accordance with the November 13, 2020
Guidance Concerning Clerk’s Office Operations of the
Supreme Court :
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

IAN M. COMISKY
Counsel of Record
PATRICK J. EGAN
FOX ROTHSCHILD LLP
2000 Market St., 20th Floor
Philadelphia, PA 19103
(215) 299-2000
icomisky@foxrothschild.com
February 11, 2021

